In the

Supreme Court of the United States

Severiano Martinez-Rojas,
Petitioner,
v.
United States of America,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE SECOND CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Severiano Martinez-Rojas, requests leave to file the annexed
Petition for a Writ of Certiorari to the United States Supreme Court for the Second
Circuit without prepayment of costs and to proceed in forma pauperis pursuant to Rule
39. The United States Court of Appeals for the Second Circuit appointed counsel, Robin
C. Smith, under the Criminal Justice Act of 1964, 18 U.S.C. Section 3006A, to represent
Petitioner. Petitioner has remained incarcerated since the commencement of his case,
and, on information and belief, is indigent.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 26, 2021

ROBIN C. SMITH, ESQ.
Law Office of Robin C. Smith,
Esq., P.C.
Attorney for Petitioner

802 B Street
San Rafael, California 94901
(415) 726-8000

